                                      SOCIAL SECURITY
MEMORANDUM

Date:   October 1, 2004                                                           Refer To:

To:     Paul D. Barnes
        Regional Commissioner
         Atlanta

From:   Assistant Inspector General
         for Audit

Subject: Family Services, Inc., of Charleston, South Carolina, A Fee-for-Service Representative
        Payee for the Social Security Administration (A-13-04-14002)


        Attached is a copy of our final report. Our objectives were to determine whether the
        Family Services Inc., (1) had effective safeguards over the receipt and disbursement of
        Social Security benefits and (2) ensured Social Security benefits were used and
        accounted for in accordance with the Social Security Administration’s policies and
        procedures.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Shirley E. Todd, Director, General
        Management Audit Division, at (410) 966-9365.




                                                       S
                                                       Steven L. Schaeffer

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     FAMILY SERVICES, INC., OF
   CHARLESTON, SOUTH CAROLINA,
        A FEE-FOR-SERVICE
      REPRESENTATIVE PAYEE
     FOR THE SOCIAL SECURITY
         ADMINISTRATION

  October 2004     A-13-04-14002



 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                  Executive Summary
OBJECTIVE
Our objectives were to determine whether Family Services, Inc. (1) had effective
safeguards over the receipt and disbursements of Social Security benefits and (2) used
and accounted for Social Security benefits in accordance with Social Security
Administration (SSA) policies and procedures.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted SSA the authority
to appoint representative payees to receive and manage these beneficiaries’ payments.
A representative payee may be an individual or an organization. SSA selects
representative payees for Old-Age, Survivors and Disability Insurance beneficiaries or
Supplemental Security Income recipients when representative payments would serve
the individual’s interests. Representative payees are responsible for using benefits in
the beneficiary’s best interests.

RESULTS OF REVIEW

Our audit showed Family Services, Inc. (FSI) did not (1) effectively safeguard the
receipt and disbursement of SSA benefits, or (2) ensure that Social Security benefits
were accounted for in accordance with SSA’s policies and procedures.

FSI had significant weaknesses, which prevented it from meeting its responsibilities as
a representative payee. Specifically we found:

   •   FSI had limited contact with beneficiaries,

   •   FSI did not have adequate internal controls to effectively safeguard the receipt
       and disbursement of SSA benefits,

   •   a separate bank account was not established to protect the beneficiaries’ interest
       or properly titled to show beneficiary ownership,

   •   FSI was not the representative payee of record for five beneficiaries, and

   •   conserved funds for some deceased beneficiaries were not sent to the estate of
       the beneficiaries.

 In addition, we identified an issue related to SSA’s oversight of the Representative
 Payee Program.



Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)                      i
RECOMMENDATIONS
We recommend that SSA:

1. Make a determination as to whether FSI should continue to serve as a
   representative payee.

If SSA’s decision is to continue to let FSI serve as a representative payee then SSA
should:

2. Ensure FSI interacts on a regular basis with the beneficiaries they serve to confirm
   their needs are being met.

3. Require FSI to improve its internal controls over the receipt and disbursement of
   SSA funds.

4. Direct FSI to establish a separate and properly titled bank account for SSA
   beneficiaries’ funds.

5. Require FSI to discontinue negotiating Social Security checks made payable to
   beneficiaries for whom FSI is not the representative payee.

In addition we recommend that SSA:

6. Determine whether five beneficiaries need representative payees.

7. Forward the remaining $2,650 in deceased beneficiary conserved funds to the
   estates of the deceased beneficiaries or contact the appropriate State probate court
   for instructions on disbursement of the remaining funds.

8. Update the Representative Payee System to reflect all current beneficiaries in FSI’s
   care.

AGENCY COMMENTS
SSA concurred with all of our recommendations.

REPRESENTATIVE PAYEE COMMENTS
FSI concurred with all of our recommendations.




Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)                      ii
                                                                      Table of Contents
                                                                                                                     Page

INTRODUCTION............................................................................................................. 1

RESULTS OF REVIEW .................................................................................................. 3

FSI Had Limited Contact with Beneficiaries .................................................................... 3

FSI Did Not Have Adequate Internal Controls to Effectively Safeguard the
Receipt and Disbursement of SSA Benefits .................................................................... 4

A Separate Bank Account Was Not Established to Protect the
Beneficiaries’ Interest or Properly Titled to Show Beneficiary Ownership ....................... 5

FSI Was Not the Representative Payee of Record for Five Beneficiaries ....................... 7

Conserved Funds for Some Deceased Beneficiaries Were Not Sent to the
Estate of the Beneficiary ................................................................................................. 8

Issue Related to SSA’s Oversight of the Representative Payment Program................... 9

CONCLUSIONS AND RECOMMENDATIONS............................................................. 10

OTHER MATTERS ...................................................................................................... 12

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – Representative Payee Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments




Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)
                                                                              Introduction
OBJECTIVE
Our objectives were to determine whether Family Services, Inc. (1) had effective
safeguards over the receipt and disbursements of Social Security benefits and (2) used
and accounted for Social Security benefits in accordance with Social Security
Administration (SSA) policies and procedures.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted SSA the authority
to appoint representative payees to receive and manage these beneficiaries’1
payments.2 A representative payee may be an individual or an organization. SSA
selects representative payees for Old-Age, Survivors and Disability Insurance
beneficiaries or Supplemental Security Income recipients when representative
payments would serve the individual’s interests.

Representative payees are responsible for using benefits in the beneficiary’s best
interests. Their duties include:

    •   using benefits to meet the beneficiary’s current and foreseeable needs;
    •   conserving and investing benefits not needed to meet the beneficiary’s current
        needs;
    •   maintaining accounting records of how the benefits are received and used;
    •   reporting events to SSA that may affect the individual's entitlement or benefit
        payment amount;
    •   reporting any changes in circumstances that would affect their performance as a
        representative payee; and
    •   providing SSA an annual Representative Payee Report accounting for how
        benefits were spent and invested.

FAMILY SERVICES, INC.

Family Services, Inc. (FSI) is a fee-for-service organization providing financial
management services to individuals and families. Additionally, FSI provides behavioral
health services, consumer credit counseling, domestic violence intervention, and
housing and financial education. During our 12-month audit period, FSI served as
representative payee for 302 SSA beneficiaries. FSI reported it also served as the


1
  We use the term “beneficiary” generically in this report to refer to both Old-Age, Survivors and Disability
Insurance beneficiaries and Supplemental Security Income recipients.
2
  42 U.S.C. §§ 405(j), 1383(a)(2).


Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)                                        1
voluntary conservator3 or legal guardian4 for approximately 197 additional individuals.
Organizationally, FSI had 21 employees of which 6 were designated to serve
499 individuals. FSI experienced significant employee turnover during our audit. For
example, during the period we conducted our fieldwork four different individuals
performed the duties of the Controller position and three different individuals performed
the duties of the Accountant position.




3
  A conservator is a third party appointed by an individual through a State court to manage an individual’s
assets.
4
  A guardian is a third party appointed by a State court to manage the affairs of an individual.


Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)                                      2
                                                        Results of Review
Our audit showed FSI did not (1) effectively safeguard the receipt and disbursement of
SSA benefits, or (2) ensure that Social Security benefits were accounted for in
accordance with SSA’s policies and procedures.

FSI had significant weaknesses, which prevented it from meeting its responsibilities as
a representative payee. Specifically we found:

      •   FSI had limited contact with beneficiaries,
      •   FSI did not have adequate internal controls to effectively safeguard the receipt
          and disbursement of SSA benefits,
      •   a separate bank account was not established to protect the beneficiaries’ interest
          or properly titled to show beneficiary ownership,
      •   FSI was not the representative payee of record for five beneficiaries, and
      •   conserved funds for some deceased beneficiaries were not sent to the estate of
          the beneficiaries.

In addition, we identified an issue related to SSA’s oversight of the Representative
Payee Program.

FSI HAD LIMITED CONTACT WITH BENEFICIARIES
We determined FSI had limited contact with the beneficiaries it serves. FSI employees
failed to meet on a regular basis with the 302 beneficiaries the organization served.
Within SSA policies, one of a representative payee’s primary responsibilities is to
ensure the beneficiary’s day-to-day needs are met. This includes, but is not limited to
meeting with the beneficiary on a regular basis to ascertain his/her current and
foreseeable needs.5 Based on our discussion with its employees, FSI viewed its
responsibility as limited to providing only financial management services. FSI had two
Financial Management Counselors to attend to the needs of approximately
302 beneficiaries.

For example, our review of one beneficiary’s expenses found FSI issued a $500 check
in July 2002 to a discount store at the request of the beneficiary for the purchase of
clothes. However, FSI never inquired whether the beneficiary needed to purchase new
clothes or verify whether the new clothes were actually purchased. In September 2002,
the beneficiary made a similar request and FSI issued another check for $200 to the
same discount store. Again, FSI made no attempt to determine if the beneficiary
needed more clothing.


5
    SSA Program Operations Manual System (POMS) GN 00502.113


Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)                         3
FSI DID NOT HAVE ADEQUATE INTERNAL CONTROLS TO
EFFECTIVELY SAFEGUARD THE RECEIPT AND DISBURSEMENT OF
SSA BENEIFITS
Our review also identified weak internal controls at FSI. SSA’s Guide for Organizational
Representative Payees states that a representative payee must keep written records to
track how much money is received; how much money is spent; and the balance saved
for each beneficiary.6 SSA also requires that the representative payee record how
benefits are used to provide an accurate report when requested.7 In addition, SSA
policy states representative payees are required to keep accurate and complete records
to show how much they received in SSA benefits and how that money was used.8

FSI did not have adequate internal controls to effectively safeguard the receipt and
disbursement of SSA benefits. Specifically, we found FSI did not:

    •   secure blank checks or maintain a sequential log to identify missing checks,
    •   reconcile bank statements to the detailed beneficiary data,
    •   maintain supporting documentation for all beneficiaries’ expenses, and
    •   implement a review or approval function in the check disbursement process.

Blank Checks               During our June 2003 visit, we discovered that FSI did not
Were Not                   secure its blank checks used to disburse funds on behalf of
Secured                    beneficiaries or maintain a sequential check log to identify
                           missing blank checks. This vulnerability could have resulted in
                           employee theft of beneficiary funds. We verified FSI corrected
this vulnerability during our return visit in September 2003.

                       During our 12-month audit period, bank statements were not
Bank Statements        reconciled to the detailed beneficiary data. Since bank
Were Not               reconciliations had not been performed, there was no assurance
Reconciled             beneficiaries’ conserved funds, as recorded in FSI’s financial
                       records, accurately reflected the amounts included in the bank
                       account balance. The FSI accountant lacked the basic
knowledge of how to perform this reconciliation and understanding of why the
reconciliation was an important internal control mechanism.

We discussed the issue of bank statements not being reconciled with the Controller at
the time of our June 2003 visit. During our return visit in September 2003, we were
informed the reconciliation of bank statements was being performed. We reviewed


6
  Representative Payment Program, Guide for Organizational Representative Payees, dated
May 26, 2004.
7
  POMS GN 00605.001B.1
8
  Id.


Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)                         4
FSI’s July 2003 financial records. Our review identified a $17,000 difference between
the amounts recorded in the subsidiary ledgers of the beneficiaries and the monthly
bank statement accounts. The beginning monthly balance used for July 2003 was the
ending balance for June 2003 bank statement. Since the June 2003 bank statement
was never reconciled with the beneficiaries’ financial data, we were unable to determine
the accuracy of any account balances.

                          We originally had planned to review a small number of expense
Beneficiaries’
                          items in the files for each of our 50 randomly selected
Expenses Lacked
                          beneficiaries. We modified our plans after determining that
Supporting
                          documentation for many beneficiaries’ expenses were not
Documentation
                          maintained. Of the17 beneficiary files reviewed for
documentation supporting expenses, 8 files lacked documentation for all expense items
reviewed, 8 files lacked documentation for most of the expense items reviewed, and
1 file contained supporting documentation for all expense items reviewed. We
consulted with FSI Management and determined that FSI did not require supporting
documentation for beneficiary expenses. Having determined a widespread deficiency in
maintaining documentation for beneficiaries’ expenses in the first 17 files we reviewed,
we did not continue our analysis of the remaining 33 files. For the 17 files, we reviewed
60 expense items totaling over $7,600 and determined that 43 expense items totaling
about $5,000 (about 66 percent) did not have supporting documentation.

Check                    FSI lacked a review or approval function for its check
Disbursements            disbursement process. Payment of expenses was handled by
Were Not Reviewed        two employees. The employees requested disbursement of
or Approved              checks to pay beneficiary expenses by entering certain
                         information onto computer input screens. Checks requested
                         were batched for printing at the end of each day. The checks
were not matched against invoices for review or approved by another employee. Actual
check printing and mailing was handled by a third employee. This employee did not
perform any review or approval function prior to mailing the checks. FSI was vulnerable
to employee theft.

We discussed its check disbursement process with FSI officials. Based on these
discussions, FSI was generally not aware of the vulnerabilities that existed in its internal
controls over the check disbursement process. We identified this vulnerability during
our June 2003 visit. Upon our return visit in September 2003, we were advised that FSI
implemented a 10 percent review of disbursements. We did not verify whether FSI
implemented a review or approval process for its check disbursement process.

A SEPARATE BANK ACCOUNT WAS NOT ESTABLISHED TO
PROTECT THE BENEFICIAIRES’ INTEREST OR PROPERLY TITLED
TO SHOW BENEFICIARY OWNERSHIP
FSI did not establish a separate bank account and have it properly titled for SSA
beneficiaries in its care. The Code of Federal Regulations (CFR) states benefit


Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)                       5
payments that are not needed for the beneficiaries’ current needs must be conserved or
invested on behalf of the beneficiary.9 All investments must show the representative
payee holds the benefit payments in trust for the beneficiary.10 Additionally, the CFR
prefers that excess funds be invested in U.S. Savings Bonds or deposited in an
interest- or dividend-bearing account in a bank, trust company, credit union, or savings
and loan association, which is insured under either Federal or State law.11 SSA policy
states that a representative payee may establish collective checking and savings
accounts to hold monies belonging to several beneficiaries.12 However, to protect the
beneficiaries’ funds, the account title must show the funds belong to the beneficiaries
and not the representative payee.13

In addition, the Federal Deposit Insurance Corporation (FDIC) insures bank deposits up
to $100,000 per individual.14 FDIC provides additional coverage of $100,000 per
individual for collective bank accounts, if the account is properly titled to show the
fiduciary relationship between the account holder and its clients. FDIC recognizes a
claim for insurance coverage based on a fiduciary relationship, only if the relationship is
expressly disclosed, by way of specific references, in the bank’s deposit account
records.15

                          We found FSI had not established a separate bank account for
A Separate Bank           SSA beneficiaries. The bank account used for beneficiaries’
Account Was Not           benefit payments contained funds belonging to all individuals
Established               served by FSI. For example, the bank account containing
                          beneficiaries’ funds was also used for Veterans Administration
recipients. In addition, the bank account held funds resulting from FSI being the
court-appointed conservator and/or guardian for other individuals under its care. The
one bank account used by FSI for all of its clients did not identify SSA beneficiaries’
ownership interest in the account. As of April 2003, there was $708,633 in this account
of which approximately $340,000 was for the 302 SSA beneficiaries. Without identifying
beneficiaries’ ownership interest, the funds belonging to SSA beneficiaries contained
within the account are at risk.

Bank Account Was         FSI’s current bank account title is, “Family Services, Inc.,
Not Properly Titled      Client Account.” The titling does not reflect ownership of the
and Was                  account by SSA beneficiaries. FSI officials stated they were
Underinsured             not aware the bank account was not titled as required by SSA
                         and for FDIC coverage of beneficiaries’ funds. As of
April 2003, the bank account balance for SSA beneficiaries was approximately
$340,000. Of this amount, $240,000 may be underinsured for not meeting FDIC titling
requirements.
9
  20 C.F.R. §§ 404.2045(a), 416.645(b).
10
   Id.
11
   20 C.F.R. §§ 404.2045(b), 416.645(b).
12
   POMS GN 00603.020B
13
   Id.
14
   12 U.S.C. § 330.1(b).
15
   12 C.F.R. § 330.5(b)(1) .


Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)                      6
FSI WAS NOT THE REPRESENTATIVE PAYEE OF RECORD FOR FIVE
BENEFICIARIES

FSI received benefit payments for five beneficiaries for whom it was not the
representative payee of record. SSA policy states that if the mailing address is a
hospital, nursing home, rest home, etc., the beneficiary may need a representative
payee.16 Also, according to SSA policy, a beneficiary's mailing address should
generally be the address where he/she resides.17 Any other address is questionable
and is not acceptable if it facilitates an assignment18 of benefits, directs checks to a
location where the beneficiary cannot readily negotiate them, or permits the beneficiary
to conceal information that would result in nonpayment of benefits. 19

                              We identified three beneficiaries20 who had their benefit
Questionable Mailing
                              payment checks mailed directly to FSI. Based on
Address and Improper
                              information contained in SSA’s information systems, the
Endorsement of
                              three beneficiaries did not have a representative payee.
Beneficiary Checks
                              The benefit payment checks were made payable to the
                              beneficiaries. FSI improperly endorsed and deposited into
its bank account 25 benefit payment checks. The checks, totaling approximately
$11,100, were deposited without the beneficiary's signature to endorse the checks. As
a result, beneficiary funds were improperly assigned to FSI.

We informed FSI of the improper check endorsements and requested SSA to determine
whether these three beneficiaries were capable of managing their own funds. If SSA
determines that these individuals are incapable of managing their own funds, SSA
should appoint a suitable representative payee.

Inappropriate            SSA policy indicates a beneficiary or representative payee can
Direct Deposit of        begin direct deposit at any time. 21 When a request for direct
Beneficiary Checks       deposit is received, SSA must verify the identity of the person
                         making the request and the account title meets its
                         requirements. SSA’s policy for account titling indicates that an
individual’s ownership interest in the account must be reflected in the account title or the
sub-account title. 22 Consequently, if these requirements are not met, the request for
direct deposit would be denied.


16
   POMS GN 02605.025
17
   Id.
18
   Assignment is defined as the transfer of the right to, or payment of, benefits to a party other than the
beneficiary or his/her representative payee. The Social Security Act prohibits the assignment of benefits.
See 42 U.S.C. § 407(a).
19
   POMS GN 02605.025A.
20
    For two of the three beneficiaries, the receipt, endorsement and deposit of benefit payment checks
occurred subsequent to our audit period.
21
   POMS GN 02402.025A
22
   POMS GN 02402.050


Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)                                      7
We identified two beneficiaries who had their benefit payments directly deposited into
FSI’s bank account. The account was not titled to indicate ownership by these
beneficiaries. Neither of these beneficiaries have a representative payee, nor have
access to this bank account. As a result, the direct deposit of approximately $8,700 in
benefit payments into FSI’s bank account was improperly assigned to FSI, and did not
comply with SSA policy.

We informed SSA of the benefit payments being directly deposited into FSI’s account
for the two beneficiaries. We requested SSA to determine whether these two
beneficiaries were capable of managing their own funds. If SSA determines that these
individuals are incapable of managing their own funds, SSA should appoint a suitable
representative payee.

CONSERVED FUNDS FOR SOME DECEASED BENEFICIARIES WERE
NOT SENT TO THE ESTATE OF THE BENEFICIARY
FSI officials informed us they had been instructed by SSA District Office (DO) staff to
return deceased beneficiaries’ conserved funds to the Agency. SSA policy states, “It
will not get involved in deciding who is entitled to the estate funds. If there is no legal
representative of the beneficiary's estate, the representative payee must contact the
State probate court for instructions on what to do with remaining conserved funds. If a
payee wishes to claim reimbursement, he/she should make his/her request to the legal
representative of the estate. If the representative payee refunds conserved benefit
funds to SSA, return them to him/her with the above explanation.”23

                           The direction provided by the DO did not comply with Agency
SSA Did Not Comply         policy. We verified FSI refunded over $10,800 to SSA. We
With Conserved             discussed FSI actions and Agency policy with DO staff in
Funds Policy               Charleston, South Carolina and SSA Regional Office staff
                           located in Atlanta, Georgia. SSA advised us this was a one
time request to have all conserved funds returned to the Agency for beneficiaries no
longer in FSI’s care. The request was the result of a prior SSA site review. In that
review it was discovered FSI had been retaining conserved funds for beneficiaries no
longer in its care.

Of the approximately $10,800 FSI returned, SSA withheld overpayment amounts due to
the Agency of about $8,150. As of May 2004, the DO still retained about $2,650 in
deceased beneficiaries’ funds. The DO should forward the remaining funds to the
estates of the deceased beneficiaries or contact the appropriate State probate court for
instructions on what to do with remaining funds.




23
     POMS GN 00603.100B.2


Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)                          8
ISSUE RELATED TO SSA’S OVERSIGHT OF THE REPRESENTATIVE
PAYMENT PROGRAM

                     We identified three beneficiaries for whom FSI served as the
Missing Data
                     representative payee that were not recorded in the Representative
in RPS
                     Payee System (RPS). The Social Security Act requires that SSA
                     develop a system to maintain data about all representative payees
and the individuals they serve.24 As a result, SSA established the RPS, which is an
online system that contains data about representative payee applicants; individuals in
the representative payee’s care; and the relationship between the representative payee
and the beneficiaries they serve.

In addition, SSA uses the RPS to select representative payees for triennial site reviews.
Specifically, SSA selects from RPS fee-for-service representative payees, all volume
representative payees serving 100 or more beneficiaries, and individual representative
payees serving 20 or more beneficiaries for site reviews.25 From the selected
representative payees, SSA obtains a sample of beneficiaries for review.

To determine the number of beneficiaries in FSI’s care, we compared FSI’s records of
beneficiaries to SSA’s records of beneficiaries in RPS. As a result, we identified three
beneficiaries for whom FSI served as the representative payee that were not recorded
in RPS. We provided SSA with the names of the three beneficiaries, so it could take
corrective action to add them to RPS.

Inaccurate information in RPS could result in a representative payee not being identified
for a site review. In addition, all beneficiaries in a representative payee’s care may not
be properly identified for a selected review.




24
  Social Security Act § 205 (j)(2)(B)(ii).
25
  SSA reports it is modifying the system selection process so it can review organizational payees serving
50 or more beneficiaries and individual payees serving 15 or more beneficiaries, as required by Section
102(b) of the Social Security Act of 2004.


Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)                                    9
                                                     Conclusions and
                                                    Recommendations
Our audit showed FSI did not (1) effectively safeguard the receipt and disbursement of
SSA benefits, and (2) ensure that Social Security benefits were accounted for in
accordance with SSA’s policies and procedures.

FSI had significant weaknesses, which prevented it from meeting its responsibilities as
a representative payee. FSI needs to make changes and improvements in several
areas of its representative payee program.

We recommend that SSA:

1. Make a determination as to whether FSI should continue to serve as a
   representative payee.

If SSA’s decision is to continue to let FSI serve as a representative payee then SSA
should:

2. Ensure FSI interacts on a regular basis with the beneficiaries they serve to confirm
   their needs are being met.

3. Require FSI to improve its internal controls over the receipt and disbursement of
   SSA funds.

4. Direct FSI to establish a separate and properly titled bank account for SSA
   beneficiaries’ funds.

5. Require FSI to discontinue negotiating Social Security checks made payable to
   beneficiaries for whom FSI is not the representative payee.

In addition we recommend that SSA:

6. Determine whether five beneficiaries need representative payees.

7. Forward the remaining $2,650 in deceased beneficiary conserved funds to the
   estates of the deceased beneficiaries or contact the appropriate State probate court
   for instructions on disbursement of the remaining funds.

8. Update the Representative Payee System to reflect all current beneficiaries in FSI’s
   care.




Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)                      10
AGENCY COMMENTS

SSA concurred with all of our recommendations. The Agency stated it has already
addressed the areas requiring corrective actions. The full text of SSA’s comments is
included in Appendix C.

REPRESENTATIVE PAYEE COMMENTS
FSI concurred with our recommendations. The representative payee stated it has
already taken corrective actions to address our recommendations. The full text of FSI’s
comments is included in Appendix D.




Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)                   11
                                                                Other Matters
SSA Could Not         One method SSA uses to monitor representative payees is the
Always Retrieve       Representative Payee Report (RPR). The RPR is intended to
RPRs                  assist SSA in determining the (1) use of benefits during the
                      preceding 12-month reporting period, (2) continued suitability of
                      the representative payee, and (3) continued need for
representative payment.26 Depending on the representative payee’s responses, SSA
may contact the representative payees to determine their continued suitability.

To determine whether FSI properly reported to SSA how benefits were used, we
requested that SSA provide the most recently completed RPRs for 50 of the
representative payee's beneficiaries. However, SSA provided 40 of the 50 RPRs we
requested. For the remaining 10, we could not determine whether FSI properly
submitted RPRs.

SSA is making improvements with the retrieval of RPRs. In January 2003, SSA
established an electronic imaging system to image and electronically store all RPR
forms. In November 2003, SSA staff stated that all RPRs received without attachments
are being “imaged” and are electronically retrievable.




26
     POMS GN 00605.001B1.


Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)                  12
                                             Appendices




Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)
                                                                       Appendix A

Acronyms
C.F.R.                       Code of Federal Regulations

DO                           District Office

FDIC                         Federal Deposit Insurance Corporation

FSI                          Family Services, Inc.

OIG                          Office of the Inspector General

POMS                         Program Operations Manual System

RPR                          Representative Payee Reports

RPS                          Representative Payee System

SSA                          Social Security Administration

U.S.C.                       United States Code




Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)
                                                                           Appendix B

Scope and Methodology
Our audit covered the period May 1, 2002 through April 30, 2003.

To accomplish our objectives, we:

   Reviewed SSA’s policies and procedures related to representative payee selection and
    monitoring.

   Reviewed prior work done by the Office of the Inspector General (OIG), Government
    Accountability Office and Social Security Administration.

   Reviewed prior audits of the representative payee by public accounting firms or other
    auditors.

   Reviewed critical documentation (e.g., Representative Accountability Form SSA-623,
    Master Beneficiary Record, Supplemental Security Income Record, Payment History
    Update System Record and documentation from the Representative Payee System).

   Performed a site review at the representative payee’s location. Which included:

        1. a review and evaluation of the representative payee’s internal controls over the
           receipt and disbursement of Social Security benefits;

        2. interviews with the representative payee and others;

        3. testing of the representative payee’s financial records (i.e., bank reconciliation,
           third-party confirmation, asset verification, trend analysis, etc.) and;

        4. observations and interviews with a sample of beneficiaries to determine if the
           representative payee is meeting the beneficiaries’ needs.

   Used OIG authorized statistical software to randomly select samples as needed.

   Performed the following tests for a random sample of 50 beneficiaries.

    •   Compared and reconciled benefit amounts received according to Family Services
        Inc.’s (FSI) records to benefit amounts paid according to SSA’s payment records.

    •   Posted FSI’s reported expenses, recalculated the conserved fund balance and
        compared and reconciled the conserved fund balances according to FSI’s records
        to the conserved fund balances we recalculated.



Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)                        B-1
   •   We planned to review a sample of expenses for all 50 beneficiaries in our sample.
       However, after we selected 60 expense items for 17 beneficiaries, we did not find
       supporting documentation for 43 expense items. FSI management advised us that
       supporting documentation was not required. We discontinued further review and
       reported this condition as a finding.

We determined FSI’s computer processed data to be sufficiently reliable for its intended
use. Further, any data limitations are minor in the context of this assignment, and the
use of the data should not lead to an incorrect or unintentional message. We tested
benefit payment receipts and disbursements recorded in the representative payee’s
automated accounting system. We completed tests to determine the completeness,
accuracy and validity of the data. These tests allowed us to assess the reliability of the
data and achieve our audit objectives.

We performed our review in Charleston, South Carolina and Baltimore, Maryland, from
April 2003 through June 2004. We conducted our review in accordance with generally
accepted government auditing standards.




Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)                   B-2
                                                                       Appendix C

Agency Comments




Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)
We reviewed the draft memo regarding the Audit of Family Services, Inc. (FSI)
and concur with the recommendations presented. We have taken appropriate actions
as indicated below:

1. Make a determination as to whether FSI should continue to serve as a
representative payee.

RESPONSE: After careful consideration, we have determined that FSI should
continue to serve as a payee. This decision is based on the improvements
that have been made in FSI's accounting system and audit trail. However, SSA will
conduct a follow-up audit within 6 months to ensure that all OIG recommendations have
been implemented. In addition, a formal training session is planned to provide detailed
guidance for the organization. It is noted that FSI performs valuable payee services for
approximately 293 individuals for whom no one else is available to serve. It is SSA's
responsibility to provide FSI with the guidance needed for properly assisting the
beneficiaries.

The field office has addressed recommendations #2 through #5 with the
organization. FSI is taking this very seriously. Caprice Atterbury, Controller at FSI,
received their copy of the draft report and contacted SSA for suggestions. It was
explained that it is FSI's responsibility to ensure compliance with SSA regulations and
procedures, but SSA will provide guidance for proper use of the beneficiaries’ funds.
FSI will provide supporting documentation that the bank accounts are now properly
titled.

2. Ensure FSI interacts on a regular basis with the beneficiaries they serve to
confirm their needs are being met.

RESPONSE: FSI will interact more often and personally with the claimants by
establishing regular routine home visits.

3. Require FSI to improve its internal controls over the receipt and disbursement of
SSA funds.

RESPONSE: The counselors will use their judgment on “special disbursements”, but
they will document that the expenditures result from direct contact with the claimant
either by phone or in person.

4. Direct FSI to establish a separate and properly titled bank account for SSA
beneficiaries' funds.

RESPONSE: Once the bank account is properly titled, the "under-insured" issue will be
resolved.

5. Require FSI to discontinue negotiating Social Security checks made payable to
beneficiaries for whom FSI is not the representative payee.



Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)                    C-1
RESPONSE: FSI now understands that it is improper to negotiate any check for
claimants for whom they are not the representative payee. This practice was
immediately terminated.

6. Determine whether five beneficiaries need representative payees.

RESPONSE: SSA completed payee development on 3/4/04 for the five individuals
identified by OIG. This issue is now resolved.

7. Forward the remaining $2,650 in deceased beneficiary conserved funds to the
estates of the deceased beneficiaries or contact the appropriate State probate court for
instructions on disbursement of the remaining funds.

RESPONSE: SSA took action as recommended to forward money on deceased
beneficiaries' conserved funds. The conserved funds in the amount of $2,664.50 on the
nine deceased beneficiaries were returned 5/27/04 for proper distribution according to
State probate court. In the follow-up audit we will verify that these monies
were returned to the estates and or probate court as appropriate.

8. Update the Representative Payee System to reflect all current beneficiaries in FSI's
care.

RESPONSE: SSA took action to resolve this problem 3/4/04.

We want to extend our appreciation to the OIG Audit Team for conducting this audit and
helping to ensure that the duties and responsibilities of FSI are accomplished in the best
interest of the beneficiaries. Questions concerning these comments may be directed to
Barbara Luke at 404-562-1322.



                                                  /s/

                                          Paul D. Barnes

                                     Regional Commissioner




Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)                  C-2
                                                                       Appendix D

Representative Payee Comments




Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)
Family Services, Inc.
4925 Lacross Road, Suite 215
North Charleston, SC 29406
Phone 843-744-1348
Fax 843-744-1348



Mr. Steven L. Schaeffer                              September 14, 2004
Assistant Inspector General for Audit
Social Security
6401 Security Blvd/4-L-1 Oper
Baltimore, MD 21235-0001

Response to: Draft Report, Family Services, Inc., of Charleston, South Carolina,
           A Fee-for-Service Representative Payee for the Social Security
           Administration (A-13-04-14002)

Dear Mr. Schaeffer:

Thank you for your letter of August 9, 2004. As a result of your audits at Family
Services, Inc. (FSI) in June and September 2003, FSI has implemented many fiscal and
management improvements. On December 1, 2003 we hired a new CPA/Controller
with 20 years experience as an independent auditor and controller, primarily for non-
profit organizations. She has been strengthening internal controls, and since December
2003, FSI has successfully completed 5 audits from various outside grantors and
oversight agencies. On January 1, 2004, the acting Executive Director assumed the
permanent Executive Director position. He is an MBA with extensive business
management experience. He was Acting Executive Director at FSI for part of 2003 and
in September 2003 he began addressing the issues your auditors brought up.

Family Services, Inc. (FSI) is a not for profit 501 c 3 organization. Our Representative
Payee Program is supported by grants from the United Way, SSBG, and fee for service
($30 per month in 2003). The program is not carried on “for profit” nor does it earn a
profit. FSI provides much needed representative services to hundreds of individuals
living below poverty level in our community. When grant funds are available we do not
charge a fee to eligible beneficiaries.

Response to Recommendations:

   1.      We believe FSI should continue to serve as a representative payee. FSI is
           been pleased to respond to all of the audit’s findings and is, or has, corrected
           all known deficiencies.




Audit of Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)           D-1
   2.      FSI counselors interact on a regular basis with our representative payee
           beneficiaries. The counselors have regular phone contact to discuss their
           beneficiary’s needs. Many of the beneficiaries come to the office weekly to
           pick up their food or personal expense checks. At that time they talk to the
           front desk receptionist, and may meet with their counselor to discuss special
           needs. If a beneficiary’s weekly check does not arrive the beneficiary phones
           the counselor immediately. The counselors often meet with beneficiaries at
           SSA, at utility companies to pay urgent bills, and in urgent situations. If
           beneficiaries request funds to purchase clothes the counselor discusses the
           request with the beneficiary and usually requires a letter from the beneficiary,
           and issues the check to the store where the beneficiary plans to buy clothes.
           During the Christmas holidays and September Day of Caring, Family Services
           and community volunteers gather gifts and visit beneficiaries selected by the
           counselors for special attention.
           We are implementing a system to confirm that all clients are contacted on a
           regular basis. Quarterly, clients that the counselors are concerned about will
           be visited.

   3.      FSI has drastically improved internal controls over the receipt and
           disbursement of SSA funds.

           a. A new Representative Payee Management (RPM) software system was
              implemented in June 2003. The system provides greatly improved
              reconciliation and case management reports.
           b. Daily, the Financial Management Accountant reconciles the receipt of
              funds into the bank account to the receipts posted to the RPM system.
              The reconciliation is reviewed and approved by the CPA/Controller.
           c. The bank statement is reconciled monthly to the RPM system, and
              reviewed and approved by the CPA/Controller.
           d. Disbursements have back up unless they are regularly occurring weekly
              allowances and rent type payments. The counselors use their judgment
              for special disbursements resulting from contact with the beneficiary.
              Small special disbursements may only need a notation in the beneficiary
              notes, while large ones require an invoice or written request from the
              beneficiary.
           e. After each check run the Financial Management Accountant selects 10%
              of the checks issued to be vouched to back up documentation to verify the
              distribution is proper.
           f. Weekly the Accounting Manager selects a random sample of
              disbursements to determine the distributions are proper. The
              CPA/Controller reviews the weekly audit.
           g. Monthly, the Accounting Manager does a sample test of SSA/SSI
              beneficiaries to verify they are being credited their benefits in a proper and
              timely manner. The CPA/Controller reviews the monthly audit.
           h. Annually, the SSA requires a Representative Payee Report (RPR) for
              each beneficiary. The beneficiary’s counselor prepares the SSA required



Audit of Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)            D-2
              RPR. The accounting verifies that the beneficiary was credited for the
              proper SSA amount and details the expenses paid during the year. The
              Accounting Manager reviews the accounting for accuracy before it is
              submitted to SSA.
           i. Blank checks are secured in the CPA/Controller and Accounting
              Manager’s office. Checks are issued sequentially and the monthly bank
              reconciliation process identifies missing checks, if any.
           j. Family Services, Inc. maintains a insurance bond of $5 million to protect
              beneficiary assets.

   4.      FSI has established a separate and properly titled bank account for SSA
           beneficiaries’ funds. The account is titled “Family Services, Inc. DBA Family
           Financial Management Representative Payee for SSA and SSI Beneficiaries.
           A copy of the statement from the properly titled account is attached.

   5.      FSI concurs with this finding. FSI did not, and does not intentionally endorse
           or receive SSA checks for non- representative payee beneficiaries. We
           immediately contact SSA if we receive unexpected deposits for non-
           representative payee beneficiaries.


   Thank you for the opportunity to respond to your draft report. If you have questions
   or require clarification please contact us.


            /s/                                            /s/
   Caprice Atterbury, CPA                            David A. Geer
   Controller                                        Executive Director


   Enclosure




Audit of Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)          D-3
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, General Management Audit Division (410) 966-9365

   Randy Townsley, Audit Manager, (410) 966-1039

Acknowledgments

In addition to the persons named above:

    Janet Stein-Pezza, Analyst-in-Charge

    Alan Carr, Senior Auditor

    Katherine Baker, Auditor

    Cheryl Robinson, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-13-04-14002.




Family Services, Inc., of Charleston, South Carolina (A-13-04-14002)
                             DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                            Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                        Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and mismanagement in
SSA programs and operations. This includes wrongdoing by applicants, beneficiaries, contractors, third
parties, or SSA employees performing their official duties. This office serves as OIG liaison to the
Department of Justice on all matters relating to the investigations of SSA programs and personnel. OI
also conducts joint investigations with other Federal, State, and local law enforcement agencies.


                    Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCCIG also advises the IG on investigative procedures
and techniques, as well as on legal implications and conclusions to be drawn from audit and investigative
material. Finally, OCCIG administers the Civil Monetary Penalty program.


                                  Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
